<html>
<title> - THE ENVIRONMENT</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                            THE ENVIRONMENT

=======================================================================

                               REPRINTED

                                from the

                           2007 ANNUAL REPORT

                                 of the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 10, 2007

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov


                              ----

                     U.S. GOVERNMENT PRINTING OFFICE

40-802 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001























              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House                             Senate 

SANDER LEVIN, Michigan, Chairman  BYRON DORGAN, North Dakota, Co-Chairman
MARCY KAPTUR, Ohio                MAX BAUCUS, Montana
MICHAEL M. HONDA, California      CARL LEVIN, Michigan
TOM UDALL, New Mexico             DIANNE FEINSTEIN, California
TIMOTHY J. WALZ, Minnesota        SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois      SAM BROWNBACK, Kansas
JOSEPH R. PITTS, Pennsylvania     CHUCK HAGEL, Nebraska
EDWARD R. ROYCE, California       GORDON H. SMITH, Oregon
CHRISTOPHER H. SMITH, New Jersey  MEL MARTINEZ, Florida


                     EXECUTIVE BRANCH COMMISSIONERS

                 PAULA DOBRIANSKY, Department of State
                CHRISTOPHER R. HILL, Department of State
                 HOWARD M. RADZELY, Department of Labor

                      Douglas Grob, Staff Director
               Murray Scot Tanner, Deputy Staff Director

                                  (ii)





























                              Environment


                              introduction


    China's leaders acknowledge the severity of their country's 

environmental problems, and the Chinese government has taken 
steps to curb pollution and environmental degradation. For 
example, the central government has developed an expansive 
framework of environmental laws and regulations to combat 
environmental problems. Nonetheless, effective implementation 
remains systemically hampered by noncompliance at the local 
level and administrative structures that prioritize the 
containment of ``social unrest'' and the generation of revenue 
over environmental protection.
    Just as China's environmental policies have not kept pace 
with the country's severe environmental degradation, neither 
have they kept pace with citizens' aspirations for, and 
increasingly vigorous expression of concern over, environmental 
health and human rights. During 2007, China's citizens 
confronted environmental public policy with an increasing 
propensity, not only to voice intense dismay with government 
and industry, but also to turn to petitions and mass protests, 
and to some extent to the courts, in order to pressure public 
officials for greater environmental accountability, 
enforcement, and protection.
    Participation in environmental protests has risen in the 
last two years, particularly among middle-class urban 
residents. Their participation is significant because, until 
recently, public protest related to environmental issues was 
concentrated in rural areas and thought to be a more remote 
concern for urban elites. Official responses to environment-
related activism have included crackdowns on the free flow of 
information, and the suppression of citizen protest. In part 
because these strategies target potential allies instead of 
engaging them, further environmental degradation may require 
China's leaders to confront the ways these strategies diminish 
their capacity to exercise effective environmental leadership 
over the long run.


    environmental degradation and public frustration with official 
                               responses


    Rapid economic growth without effective environmental 
safeguards has led to severe environmental degradation, with 
water, air, soil, and other forms of pollution threatening 
public health and quality of life. Poor soil and water 
conservation practices and government inattention to polluting 
industries exacerbate these problems. Many Chinese citizens 
suffer from respiratory diseases, and the State Environmental 
Protection Administration (SEPA) estimated that there are 
approximately 358,000 premature deaths each year due to air 
pollution.\1\ Acid rain affects about one-third of the 
country.\2\ Deforestation and erosion leading to loss of arable 
land, landslides, and sedimentation of waterways are 
widespread.\3\ Water pollution and poor conservation practices 
have led to water shortages in many areas, leaving millions in 
urban areas, and one-third of the rural population without 
access to clean drinking water.\4\
    The Chinese government acknowledges the severity of China's 
environmental problems. The State Council's White Paper on 
``Environmental Protection (1996-2005),'' issued in June 2006, 
notes that ``the contradiction between economic growth and 
environmental protection is particularly prominent'' as the 
``relative shortage of resources, a fragile ecological 
environment, and insufficient environmental capacity are 
becoming critical problems hindering China's development.'' \5\ 
Senior government officials also acknowledge the public protest 
that severe environmental degradation could prompt.\6\ A U.S. 
expert has observed that environmental degradation and 
pollution ``constrain economic growth, contribute to large-
scale migration, harm public health, and engender social 
unrest.'' \7\ According to official Chinese estimates, 
environmental degradation and pollution cost China an estimated 
8 to 12 percent of annual gross domestic product (GDP), and the 
number of mass protests over pollution has increased by 29 
percent per year in recent years.\8\
    China has taken steps to curb pollution and environmental 
degradation. In both its 10th (2001-2005) and 11th (2006-2010) 
Five-Year Plans, the government formulated or revised 
environmental protection laws, administrative regulations, and 
standards, and has worked to strengthen enforcement of anti-
pollution rules.\9\ In addition, SEPA and the Ministry of 
Health (MOH) are working together to facilitate the sharing of 
information resources, and to develop a national action plan 
and implementation measures on environmental health.\10\ As 
described below, for some incidents that have captured public 
attention, central and local governments have imposed 
administrative penalties on polluters and public officials 
responsible for enforcement failures.
    Nonetheless, although the central government has issued 
numerous environmental laws and programs, effective 
implementation has been beset by problems that are fundamental 
and widespread. Local environmental protection bureaus (EPBs) 
depend on local governments for resources and funding, and 
submit to political control by local Party Committees. In part 
because local governments (and some officials) derive income 
from local enterprises, some local EPBs receive pressure to 
engage in weak or selective enforcement. Even without such 
pressure, officials in underfunded EPBs have incentives to 
permit polluting enterprises to continue operating in order to 
preserve revenue used to finance their bureau's operating 
deficits. Shortages of well-trained environmental personnel, 
loopholes in the law, and weak interagency coordination 
contribute to an incentive structure that favors economic 
growth over the rigorous implementation and enforcement of 
environmental protection measures.\11\
    China's serious air, water, and soil pollution problems 
have emerged in recent years as one of the country's most 
rapidly growing sources of citizen activism. For example, 
SEPA's Minister Zhou Shengxian stated in July 2007 that the 
number of citizen petitions received by SEPA in the first five 
months of 2007 grew by 8 percent over the same period in 2006. 
Moreover, the number of pollution-related ``mass incidents'' 
(China's official term for protests) 
increased during a year when officials claimed that overall 
mass incidents decreased significantly.\12\ These numbers 
reflect, in part, Chinese citizens' willingness, prompted by 
rapidly rising frustration with the government's failure to 
rein in environmental degradation, to stand up for the 
environment, and for their rights.\13\
    In its 2006 Annual Report, the Commission reported that 
central government officials delayed some of the proposed 
hydroelectric dams on the Nujiang (Nu River) in response to 
environmental concerns from civil society groups.\14\ As of 
February 2007, some villagers have already been resettled in 
advance of the Liuku dam, one of four approved dams, and there 
have been concerns over inadequate relocation compensation.\15\ 
Local residents around the site of the proposed Lushui dam, 
which has not been approved, have observed laborers engaging in 
survey work on the dam. Other villagers have limited knowledge 
of the proposed dams being built in their vicinity.\16\ This 
continued lack of transparency limits public involvement and 
violates the government's own environmental protection laws and 
policies.\17\
    In a nationwide campaign that inspected 720,000 enterprises 
in 2006, the government reported that 3,176 polluting 
enterprises had been closed, and SEPA reported 161 pollution 
accidents in 2006.\18\ Administrative litigation and 
administrative reconsideration remain avenues for environmental 
dispute resolution and private enforcement, but attention in 
2006-2007 turned to a rise in the form of ``high-impact'' 
litigation, particularly in cases involving compensation for 
the health impacts of environmental pollution. Although the 
government prevails in the majority of cases, experts have 
noted that high-impact cases often prompt an official response, 
typically in the form of new administrative rules and Party 
directives, even when plaintiffs lose.\19\
    Promotion of rural officials for a long time has been tied 
to their record of containing social protest. For example, 
``(L)ocal officials will only be promoted to more senior 
positions if they can minimize social unrest in the 
countryside,'' according to a senior Party official.\20\ These 
officials choose either to confront the underlying 
environmental problem or to suppress activists.\21\ Previously, 
experts have noted that rural residents tended more frequently 
than urban residents to engage in ``large-scale'' protests over 
environmental issues.\22\ Events in 2007, however, suggest that 
this impression may now be outdated, as the urban middle class' 
supposed preference for non-confrontational approaches gave way 
to a rise in urban environmental activism. Mass protests in 
Xiamen over the construction of a chemical plant in June 2007 
and protests shortly thereafter in Beijing over the building of 
a garbage incineration power project signal some of the first 
large-scale protests in urban areas by middle-class citizens 
over environmental pollution. These protests are significant 
because they suggest that middle-class urban residents regard 
alternative methods for pollution prevention and health 
preservation as inadequate.
    Chinese citizens concerned with environmental issues are 
increasingly organized. There are now an estimated 4,000 
registered and unregistered environmental nongovernmental 
organizations (NGOs) nationwide.\23\ In recent years, these 
NGOs have broadened their focus beyond initial efforts at 
public education and awareness to assisting pollution victims 
in pursuing redress through the legal system, and mobilizing 
public participation in and support for environmental 
protection.\24\ SEPA has sought public support for and 
participation in environmental protection work and has, to a 
limited extent, encouraged and supported environmental NGO 
activism. In 2005, SEPA held a public hearing to encourage 
citizen 
interest and NGO activism,\25\ and in February 2006, it 
released two provisional measures on public participation in 
Environmental Impact Assessment (EIA) procedures. These 
measures are the first to contain specific arrangements and 
procedures for public involvement in environmental issues.\26\ 
Since the release of the provisional measures, approximately 43 
projects with a value of 160 billion yuan (US$20.5 billion) in 
investments have been halted for violating EIA procedures.\27\
    In an effort to increase transparency, SEPA issued a 
regulation in April 2007 on environmental information 
disclosure, coinciding with the State Council's issuance of the 
Regulation on the Public Disclosure of Government Information. 
[See Section II--Freedom of Expression.] The SEPA regulation 
lists 17 categories of government information that should be 
made public either through government Web sites, local 
newspapers, or upon request. Firms may voluntarily disclosure 
information in nine categories and are obligated to disclose 
information when they violate standards or cause an 
accident.\28\
    In spite of this apparent support for limited citizen 
activism by SEPA, official efforts to increase control over 
environmental civil society groups during the past two years 
have had a chilling effect on citizen activism. During 2006-
2007, the Commission has observed numerous official actions to 
repress citizen activism and organizers that work on 
environmental or environmental health issues:

        <bullet> Fu Xiancai, who has protested forced 
        resettlement of citizens during the construction of the 
        Three Gorges Dam project, gave an interview with a 
        German television station in May 2006. A public 
        security official interrogated Fu about the interview 
        in June 2006, and shortly thereafter an unidentified 
        assailant attacked Fu. The attack left Fu paralyzed 
        from the shoulders down.\29\ The official investigation 
        into the assault concluded in August 2006 that Fu's 
        injuries were self-inflicted.\30\
        <bullet> Environmental activist Tan Kai was detained in 
        October 2005 for his involvement in the environmental 
        group ``Green Watch'' and was tried in May 2006 on 
        charges of illegally obtaining state secrets. In August 
        2006, Tan was sentenced to 18 months' imprisonment and 
        was reportedly released in April 2007.\31\
        <bullet> After activist Sun Xiaodi was awarded the 
        Nuclear-Free Future Award in December 2006, officials 
        have intensified their harassment efforts. Sun has 
        spent more than a decade petitioning central 
        authorities over radioactive contamination from the No. 
        792 Uranium Mine in the Gannan Tibetan Autonomous 
        Prefecture in Gansu province. Sun has protested illegal 
        mining allegedly carried out by local officials that 
        has resulted in an unusually high rate of cancer and 
        other health problems for residents in the area. In 
        February 2007, Sun traveled to Beijing to seek further 
        medical consultation and treatment of a tumor in his 
        abdominal cavity.\32\ In July 2007, the State 
        Security Bureau in Beijing reportedly ordered Sun to 
        leave Beijing.\33\


------------------------------------------------------------------------
   Case: Human Rights Abuses and Intolerance of Environmental Activism
-------------------------------------------------------------------------
Background
Wu Lihong, a 39-year old sound-proofing equipment salesman turned
 environmental activist, has spent the past 17 years documenting the
 pollution in Taihu (Lake Tai) in his hometown of Yixing city, Zhoutie
 township, Jiangsu province, in the hopes of pressuring local officials
 and factories to stop the pollution and clean up the lake.\34\ Wu
 notes, ``My wish is that the lake will return to the lake of my
 childhood, when the water was safe and we could go swimming in it
 without fear.'' \35\ Wu collects physical evidence of pollution in Lake
 Tai, such as bottles of dirty water illegally discharged from chemical
 enterprises around the area and the local officials whose complicity
 exacerbate the situation, and submits this evidence to provincial- and
 central-level officials through the xinfang (petitioning) system.\36\
In interviews with foreign media in 2006 and early 2007, Wu remarked
 that ``It is shameful that we can't drink from the lake. The chemical
 factories and local government officials should be blamed. I want them
 to admit their responsibility so we will have clean drinking water
 again. . . . The corruption is severe. Some local officials are only
 after profits so they will do anything to protect their interests, even
 if it means flouting environmental standards and allowing polluting
 factories to operate.'' \37\ His strategy of bypassing local officials
 and filing petitions with provincial- and central-level officials
 seemed to have worked in part: more than 200 polluting factories have
 been closed since the mid-1990s. Local officials, such as the director
 of Yixing's EPB, give a different assessment, ``He is only interested
 in filing reports to officials above us. If you want me to commend him
 . . . sorry, I can only say I will not do that.'' \38\
Due to his environmental advocacy efforts, local government officials
 have repeatedly harassed Wu and his family members, even though a panel
 of judges from the People's Political Consultative Conference and the
 National People's Congress named him one of China's top 10
 environmentalists in November 2005.\39\ According to foreign media
 interviews with him and his wife, Xu Jiehua, Wu lost his job after his
 manager was warned by local officials to fire him and in 2003, he was
 beaten on three occasions by local thugs. In addition, his daughter
 reportedly received threats over the phone from anonymous callers, and
 his wife lost her job in 1998, after the chemical factory where she was
 employed closed in response to one of his reports.\40\
Official Mistreatment in 2007
April 13, 2007: Shortly before Wu planned to provide central officials
 in Beijing with new evidence against local officials, Yixing public
 security officials detained Wu, accusing him of blackmail and
 extortion.\41\ Officials at the Yixing Detention Center restricted his
 ability to see his lawyer or family, and his lawyer reported evidence
 of torture when she met with him a month later.\42\
May to June 2007: Outbreaks of green-blue algae in Lake Tai left
 millions of residents in a rush to purchase bottled water. The central
 government's main news agency, Xinhua, largely attributed the outbreaks
 to pollution.\43\ In June, Premier Wen Jiabao ordered a formal
 investigation into the algae growth, noting that despite numerous
 attempts to improve the quality of the water, ``the problem has never
 been tackled at the root.'' \44\ State-controlled media and experts
 criticized local officials for blaming the problem on natural
 conditions, such as a warm climate, and for not taking effective steps
 to control pollution in Lake Tai.\45\
June 2007: The Yixing People's Court charged Wu with blackmail and
 allegedly extorting 55,000 yuan (US$6,875) from enterprises in exchange
 for not exposing them as polluters.\46\ Wu's original trial date was
 scheduled for June 12, but was postponed to allow a medical
 investigation of his wounds in response to a complaint filed by his
 lawyer.\47\
August 10, 2007: The Yixing People's Court sentenced Wu to three years'
 imprisonment for fraud and extortion, and ruled that there was no
 evidence of torture.\48\ Wu was also fined 3,000 yuan (approximately
 US$400) and ordered to return the money he allegedly extorted from
 enterprises.\49\ Xu Jiehua has taken on her husband's cause by suing
 SEPA for naming Yixing a model city. The Yixing People's Court
 reportedly refused to consider the case.\50\
A System of Policy Implementation That Relies on the Abuse of Rights
Even though national leaders have publicly called on China's citizens to
 report misbehavior by members of the Communist Party, Wu Lihong's
 detention and imprisonment underscore the problem that activists are
 not afforded adequate whistleblower protections, but instead are
 singled out for harassment, and left vulnerable to revenge by the
 officials whose malfeasances they bring to light.\51\ Effective
 implementation of China's announced commitment to environmental
 protection requires information, private initiative, and citizen
 leadership.\52\ Wu's imprisonment illustrates the extent to which
 China's leaders have structured political and legal affairs in ways
 that impose risks on citizen activists.
According to Xinhua, the central government demanded that officials
 close several hundred factories near Lake Tai in June 2007. Officials
 also required 20,000 chemical plants in the Lake Tai area to meet
 tougher standards for sulfur dioxide emissions and water pollution.
 Plants that fail to meet the new standards by the June 2008 deadline
 risk suspension or closure. In addition, cities around Lake Tai must
 establish sewage treatment plants and can no longer discharge untreated
 sewage into the lake and rivers in the area. Existing plants must
 install nitrogen and phosphorus removal facilities before the deadline.
 In July 2007, senior provincial officials in Jiangsu instructed local
 officials to make combating pollution in Lake Tai a priority, even if
 it meant a 15 percent decrease in the province's GDP.\53\ At the time
 of this writing, Wu Lihong remains in prison.
------------------------------------------------------------------------

      challenges of building bureaucratic capacity and overcoming 
                             obstructionism


    Local EPBs are frequently unable or unwilling to carry out 
many of the numerous environmental laws and regulations passed 
by the central government. Strengthening local level EPB 
funding and enforcement capacity has been a significant 
challenge. Some local EPB offices rely upon income from fines 
to fund operating budget deficits, which in turn provides 
incentives for lax enforcement of environmental measures.\54\
    China continues to delay publication of its 2005 Green GDP 
report due to bureaucratic wrangling and pressure from local 
governments. The report has already been drafted but has now 
been ``indefinitely postponed.'' The report's release would 
have symbolized growing environmental transparency as it would 
have provided the public and Chinese and international NGOs 
more 
detailed information than the first Green GDP report in 2004. 
The 2004 report sparked controversy by estimating that China's 
economic losses from environmental degradation amounted to 
511.8 billion yuan (US$67.7 billion), or approximately 3.1 
percent of China's entire GDP.\55\ Local governments reportedly 
opposed the 
report's publication because it contained detailed data on 
environmental performance and conditions broken down by 
province.\56\ SEPA and the National Bureau of Statistics also 
reportedly disagreed over what information to include and how 
to disseminate that information.\57\
    The Chinese government reportedly pressured the World Bank 
to remove material from a joint report, including the figure 
that some 750,000 people die prematurely in China each year due 
to air and water pollution.\58\ China's Ministry of Foreign 
Affairs has denied this charge.\59\ Several news accounts 
reported, however, that the Chinese government impugned the 
report's methodology, calling it ``not very reliable,'' and 
voiced concern that it might spark citizen protest if 
released.\60\ SEPA's Vice Minister Zhou Jian noted that ``It's 
a very complex issue to analyze the impact of pollution on 
human health. Without a common scientific methodology in the 
world, any survey on environment and health is not 
persuasive.'' \61\
    In 2007, China finally issued punishments to those found 
responsible for the November 2005 Songhua River benzene spill 
that threatened the Chinese city of Harbin and the Russian city 
of Khabarovsk. As the Commission noted in its 2006 Annual 
Report, the coverup of the Songhua spill demonstrated a lack of 
transparency which, in turn, hampered the government's ability 
to respond to the environmental disaster. In its aftermath, 
despite steps to improve local reporting to higher authorities, 
the central government did not address the larger issue of 
government control over the news media [see Section II--Freedom 
of Expression]. In 
November 2006, the State Council supported administrative 
punishments and Party disciplinary punishments, but no criminal 
prosecutions, for 14 state-owned company and local government 
officials involved in the Songhua incident.\62\ SEPA imposed 
the maximum fine on the state-owned Jilin Petrochemical Company 
as administrative punishment for its role in the incident.\63\ 
Some Chinese experts assert that SEPA's maximum fines are still 
too low to act as an effective deterrent.\64\ A recent draft 
revision of the Water Pollution and Control Law may strengthen 
and increase punishments for unlawful conduct.\65\

                                Endnotes

    \1\ Simon Elegant, ``Barely Breathing,'' Time Magazine (Online), 12 
December 06.
    \2\ ``China To Build Wind Farms Offshore,'' China Daily (Online), 
16 May 05.
    \3\ ``Reckless Human Activity Blamed for Frequent Mountain 
Torrents,'' Xinhua (Online), 23 June 05; ``World Research Group on 
Erosion Founded in China,'' People's Daily (Online), 20 October 04.
    \4\ ``Growth Leaves Country High and Dry,'' China Daily (Online), 
28 December 04; Ministry of Water Resources (Online), ``Thirsty 
Countryside Demands Safe Water,'' 23 March 05.
    \5\ State Council Information Office, White Paper on Environmental 
Protection in China (1996-2005), People's Daily (Online), 5 June 06.
    \6\ ``Analysis: Stability Concerns Drive China's Environmental 
Initiatives,'' Open Source Center, 28 June 06; Ching-Ching Ni, ``China 
Toughens Stance on Environmental Protection,'' Los Angeles Times 
(Online), 22 February 06.
    \7\ Elizabeth C. Economy, The River Runs Black: The Environmental 
Challenge to China's Future (Ithaca, New York: Cornell University 
Press, 2004), 24.
    \8\ Ibid., 25; `` `Mass Incidents' on Rise as Environment 
Deteriorates,'' Xinhua (Online), 5 July 07.
    \9\ State Council Information Office, White Paper on Environmental 
Protection in China (1996-2005); Andrew Baston, ``China Takes on 
Pollution,'' Wall Street Journal, 6 June 06, A8.
    \10\ ``SEPA and the Ministry of Health Will Draw Up Standards of 
Environmental Damage Caused Health,'' Environment Public Information 
Network Center, reprinted in All-China Environment Federation (Online), 
7 October 06.
    \11\ Ching-Ching Ni, ``China Toughens Stance on Environmental 
Protection;'' Deng Weihua, Lin Wei, and Li Zebing, ``A Strange Circle 
of Pollution-Control-the Worse the Pollution, the Wealthier the 
Environmental Protection Bureaus'' [Zhiwu guaiquan: wuran yue zhong 
huanbao bumen yue fu], Legal Daily (Online), 12 July 05; Elizabeth C. 
Economy, The River Runs Black,'' 20-21.
    \12\ `` `Mass Incidents' on Rise as Environment Deteriorates,'' 
Xinhua.
    \13\ Jonathan Watts, ``China Blames Growing Social Unrest on Anger 
over Pollution,'' The Guardian (Online), 6 July 07; `` `Mass Incidents' 
on Rise as Environment Deteriorates,'' Xinhua.
    \14\ CECC, 2006 Annual Report, 20 September 06, 103.
    \15\ Wang Yongchen, ``Nu River News,'' Three Gorges Probe (Online), 
6 March 07.
    \16\ Wang Yongchen, ``Nu River News;'' Jianqiang Liu, ``Fog on the 
Nu River,'' China Dialogue (Online), 28 February 07. In February 2004, 
the government responded to citizen environmental concerns and agreed 
to suspend all 13 proposed hydroelectric dam projects on the Nujiang 
(Nu River) in Yunnan province, pending further review. In 2005, Chinese 
officials reversed this decision after a closed internal review of the 
Environmental Impact Assessment (EIA) report, said that four of the 
proposed dams would be built, and banned further domestic news media 
coverage of the topic. In September 2005, environmental activists 
posted an open letter to the State Council on the Internet, pointing 
out violations of the EIA law and demanding that officials organize a 
public hearing on the dam project. Yunnan provincial authorities 
subsequently released the government's order approving the EIA report, 
after refusing to do so for two years. In April 2006, Chinese activists 
reported signs of survey work near the proposed dams being covered up 
before a visit by a UNESCO-ICUN inspection team to investigate the 
potential impacts of building a dam in the Three Parallel Rivers 
National Park, which is a UNESCO world heritage site. Wang Yongchen, 
``Nu River News;'' CECC, 2006 Annual Report, 107.
    \17\ ``Call for Public Disclosure of Nujiang Hydropower 
Development's EIA Report in Accordance with the Law,'' Three Gorges 
Probe News Service (Online), 6 September 05; Jim Yardley, ``Seeking a 
Public Voice on China's `Angry River,' '' New York Times (Online), 26 
December 05.
    \18\ ``New Rules to Curb `Rampant' Violations of Pollution Laws,'' 
Xinhua (Online), 12 July 07.
    \19\ Experts have noted the significance of high impact litigation, 
in which even if the plaintiffs loses the case, it still may spur 
public officials to act, such as by issuing regulations. CECC Staff 
Interview; Xu Kezhu and Alex Wang, ``Recent Developments at the Center 
for Legal Assistance to Pollution Victims (CLAPV),'' Woodrow Wilson 
Center for International Scholars, 8 China Environment Series 103, 104 
(2006).
    \20\ ``Containing Social Unrest Key to Chinese Officials' Promotion 
Prospects,'' China Elections and Governance Web site (Online), 9 July 
07.
    \21\ Ibid.
    \22\ ``China's Environmental Degradation Creating Social Time-
Bomb,'' China Corporate Social Responsibility (Online), 1 August 07; 
Guobin Yan, ``Of Revolution and Reform: Two Faces of Environmental 
Activism in China,'' presented at the Association for Asian Studies 
Conference, April 2006.
    \23\ CECC Staff Interview.
    \24\ CECC, 2005 Annual Report, 11 October 05, 75.
    \25\ Ibid.
    \26\ The measures allow a limited role for the public in the EIA 
process through attendance at symposiums or public hearings, answering 
questionnaires, and consulting experts. In July 2006, a SEPA official 
announced that public hearings may be held on important, complex, or 
difficult environmental matters. ``Public Can Help Environment,'' China 
Daily (Online), 27 February 06; ``SEPA Chief: Emergency Environmental 
Incidents Can Be Directly Reported to the State Bureau For Letters and 
Calls'' [Huanbao zongju: tufa zhongda huanjing shixiang ke zhi bao 
guojia xinfang ju], People's Daily (Online), 6 July 06; ``SEPA Issues 
New Measures on Environmental Letters and Petitions'' [Huanbao zongju 
fabu shishi xin de huanjing xinfang banfa], Legal Daily (Online), 6 
July 06.
    \27\ Among the blocked projects, 31 were later granted approval 
after they carried out the proper consultation with the public. ``SEPA 
Blocks 12 Industrial Projects for Lack of Public Support,'' Xinhua 
(Online), 8 May 07; Ling Li, ``New Environmental Transparency Rule 
Opens Opportunity for Public Participation,'' China Watch (Online), 3 
May 07.
    \28\ These regulations will become effective on May 1, 2008. 
Workshop on Information Disclosures and Environment in China, World 
Bank, 5 June 07; Ling Li, ``New Environmental Transparency Rule Opens 
Opportunity for Public Participation;'' ``Govt's, Firms Ordered To 
Release Pollution Figures,'' Xinhua (Online), 26 April 07.
    \29\ ``Three Gorges Resettlement Activist Paralyzed After 
Assault,'' CECC China Human Rights and Rule of Law Update, July 2006, 
10-11.
    \30\ ``Officials Conclude Investigation, Increase Surveillance Over 
Activist Fu Xiancai,'' CECC China Human Rights and Rule of Law Update, 
September 2006, 12.
    \31\ Human Rights in China (Online), ``News Update: Hangzhou 
Environmentalist Tan Kai's Trial Granted Continuance,'' 22 June 06; 
``Environmentalist Tan Kai Sentenced to 1.5-Year Term'' [Huanbao renshi 
tan kai bei pan yi nian ban xingqi], Radio Free Asia (Online), 11 
August 06; Chinese Human Rights Defenders (Online), ``Zhejiang 
Environmental Activist Tan Kai Released from Prison'' [Zhejiang huanbao 
renshi tan kai chuyu], 1 May 07.
    \32\ Human Rights in China presented Sun Xiaodi's acceptance 
message for the prestigious Nuclear-Free Future Award in Window Rock, 
Arizona on December 1, 2006. His wife, who stayed in Gansu province 
after Sun departed for Beijing, has continued to receive threats and 
harassment from unknown individuals believed to be hired by local 
officials. Human Rights in China (Online), ``Sun Xiaodi Harassed, Faces 
Financial Hardship,'' 27 March 07; Human Rights in China (Online), 
``Environmental Activist Sun Xiaodi Faces Stepped-up Harassment after 
International Award,'' 2 January 07.
    \33\ ``State Security Bureau in Beijing Orders Sun Xiaodi To Leave 
Beijing'' [Beijing guoan leling sun xiaodi li jing], Radio Free Asia 
(Online), 18 July 07.
    \34\ Minnie Chan, ``Partner Profile: Defenders of Tai Hu,'' South 
China Morning Post, reprinted in Pacific Environment (Online), 29 May 
06.
    \35\ Tracy Quek, ``The Man Who Wants To Save a Lake; Beijing's 
Efforts To Protect the Environment Thwarted by Local Officials' 
Subterfuge in their Drive for Growth,'' Straits Times (Online), 21 
January 2007.
    \36\ Chan, ``Partner Profile: Defenders of Tai Hu.''
    \37\ Ibid.; Quek, ``The Man Who Wants To Save a Lake.''
    \38\ Chan, ``Partner Profile: Defenders of Tai Hu.''
    \39\ Ibid.
    \40\ Ibid.
    \41\ `` `Hero of Taihu' Wu Lihong Detained'' [``Taihu weishi'' wu 
lihong bei daibu], Deutsche Welle (Online), 23 April 07; Andreas 
Landwehr, ``Attempt To Save Polluted Chinese Lake Leads to Arrest,'' 
Deutsche Presse-Agentur (Online), 17 April 07; ``China Detains Green 
Activist Once Hailed Hero,'' Reuters (Online), 23 April 07; Shai Oster, 
``Police Hold Chinese Foe of Polluters,'' Wall Street Journal (Online), 
23 April 07.
    \42\ ``Jiangsu Environmental Activist Wu Lihong Beat Up in Prison'' 
[Jiangsu huanbao renshi wu lihong zai jianyu zhong zao duda], Radio 
Free Asia (Online), 1 June 07; ``Wife of Chinese Environmental Activist 
Wu Lihong Says Husband Tortured,'' Agence France-Presse, 1 June 07 
(Open Source Center, 04 June 07); Wang Xiangwei, ``Editorial: Release 
the Man Who First Raised the Alarm About Tai Lake's Pollution,'' South 
China Morning Post (Online), 4 June 07; ``Extortion Trial for Chinese 
Environmentalist Postponed, Wife and Attorney Say,'' Associated Press, 
reprinted in China Post (Online), 6 June 07.
    \43\ ``Premier Demands Thorough Investigation of Taihu Lake 
Crisis,'' Xinhua (Online), 12 June 07; `` `Mass Incidents' on Rise as 
Environment Deteriorates,'' Xinhua; Chris Buckley, ``China Algae 
Outbreak Sparks Water Panic,'' Reuters (Online), 31 May 07; Christopher 
Bodeen, ``China's Premier Orders Lake Algae Probe,'' Associated Press, 
reprinted in the Washington Post (Online), 12 June 07.
    \44\ Bodeen, ``China's Premier Orders Lake Algae Probe.''
    \45\ Ibid.
    \46\ `` `Eco-warrior' Wu Lihong Charged for Blackmail,'' Xinhua, 
reprinted in People's Daily (Online), 6 June 07.
    \47\ ``Extortion Trial for Chinese Environmentalist Postponed, Wife 
and Attorney Say,'' Associated Press.
    \48\ Benjamin Kang Lim, ``China Jails Environment Activist, Cuts 
Dissident's Term,'' Reuters (Online), 18 August 07.
    \49\ Tracy Quek, ``China Jails `Green' Hero,'' Strait Times, 12 
August 07.
    \50\ Lim, ``China Jails Environment Activist.''
    \51\ For example, in 2002, President Hu Jintao noted that ``the 
masses should play a role in supervising party officials.'' Simon 
Montlake, ``Whistle-blower in China Faces Prison,'' Christian Science 
Monitor (Online), 14 August 07.
    \52\ For example, Zhou Jian, Vice Minister of SEPA, mentioned that 
there is differing information relating to environmental health data. 
Yet, he reiterated the Chinese government's promise to protect people's 
health from pollution. Sun Xiaohua, ``World Bank Environment Report 
`Not Very Reliable,' '' China Elections and Governance Web site 
(Online), 18 July 07.
    \53\ Wang Jiaquan, ``China's Economic Engine Forced To Face 
Environmental Deficit,'' China Watch (Online), 26 July 07.
    \54\ China Council for International Cooperation on Environment and 
Development (CCICED) Task Force on Environmental Governance, 
``Environmental Governance in China,'' presented at the 5th Annual 
General Meeting of the CCICED, 10-12 November 06, 11-12.
    \55\ Ling Li, ``China Postpones Release of Report on `Green' GDP 
Accounting,'' China Watch (Online), 31 July 07; ``China's Environmental 
Degradation Creating Social Time-Bomb,'' China Corporate Social 
Responsibility.
    \56\ Ling Li, ``China Postpones Release of Report on `Green' GDP 
Accounting.''
    \57\ Ibid.
    \58\ Sun Xiaohua, ``World Bank Environment Report `Not Very 
Reliable.' ''
    \59\ ``Beijing Denies Bid To Cover Up World Bank Pollution Data,'' 
South China Morning Post (Online), 9 July 07.
    \60\ Monica Liau, ``Chinese Government Censors World Bank Pollution 
Report,'' China Watch (Online), 11 July 07; Richard McGregorin, 
``Beijing Censored Pollution Report,'' Financial Times (Online), 3 July 
07; Mitchell Landsberg, ``China Cancels Environment Report,'' Los 
Angeles Times (Online), 24 July 07.
    \61\ Sun Xiaohua, ``World Bank Environment Report `Not Very 
Reliable.' ''
    \62\ State Council Information Office (Online), ``The State Council 
Has Handled the Jilin Explosion Incident and Songhua Water Pollution 
Incident'' [Guowuyuan dui jihua baozha shigu ji songhua jiang shuiwuran 
shijian zuo chuli], 24 November 06.
    \63\ ``Branch Office of Jilin Petrochemical Company Fined One 
Million Yuan for Songhua River Incident'' [Jilin shihua fengongsi yin 
songhua jiang shuiwuran bei fakuan 100 wan], Xinhua (Online), 24 
January 07.
    \64\ ``Can SEPA's Maximum Fine Unsettle Enterprises' Low Cost of 
Violating the Law?'' [Huanbao zuida fadan nengfou zhenshe qiye 
dichengben weifa], China Youth Daily (Online), 25 January 07.
    \65\ ``Draft of Revised Water Pollution Prevention Law Already 
Finished'' [Shuiwuran fangzhi fa xiugai caoan yi ni chu], Legal Daily 
(Online), 30 January 07; ``China Solicits Public Opinion on Draft Law 
on Water Pollution,'' Xinhua (Online), 5 September 07.

                                 <all>

</pre></body></html>
